Nos. 19-1058 and -1061
In the

Supreme Court of the United States
Hospira, Inc.,
Petitioner,
v.
Eli Lilly and Company,
Respondent.

Dr. Reddy’s Laboratories, Ltd., et al.,
Petitioners,
v.
Eli Lilly and Company,
Respondent.
On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Federal Circuit
BRIEF OF THE R STREET INSTITUTE AS AMICUS
CURIAE IN SUPPORT OF THE PETITIONS
Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amicus curiae

INTEREST OF AMICUS CURIAE
The R Street Institute1 is a nonprofit, nonpartisan
public-policy research organization. R Street’s mission
is to engage in policy research and educational outreach
that promotes free markets as well as limited yet effective government, including properly calibrated legal and
regulatory frameworks that support economic growth
and individual liberty.
ARGUMENT
Certiorari should be granted for the reasons given in
the Brief of Amicus Curiae the R Street Institute, filed
concurrently in CJ CheilJedang Corp. v. International
Trade Commission, No. 19-1062, which is concurrently
on petition for a writ of certiorari before this Court. The
present two cases raise substantially the same question
presented as CJ CheilJedang and are equally appropriate
vehicles for raising that question.
To avoid burdening this Court with a duplicative filing, the content of that brief is not repeated here. Amicus curiae respectfully requests consideration of the arguments presented in the CJ CheilJedang brief, with respect to these two petitions for writs of certiorari.

1

Pursuant to Supreme Court Rule 37.2(a), all parties received appropriate notice of and consented to the filing of this brief. Pursuant
to Rule 37.6, no counsel for a party authored this brief in whole or in
part, and no counsel or party made a monetary contribution intended
to fund the preparation or submission of the brief. No person or entity, other than amicus, its members, or its counsel, made a monetary
contribution to the preparation or submission of this brief.

1

2
CONCLUSION
The petitions for writs of certiorari in these cases and
in CJ CheilJedang Corp. v. International Trade Commission, No. 19-1062, should be granted.

Respectfully submitted,
Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amicus curiae
March 2020

Rev. 91095581

